                                     SOCIAL SECURITY

MEMORANDUM
Date:   August 26, 2004                                                    Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: Overpayments in the Old-Age, Survivors and Disability Insurance Program
        (A-01-04-24023)


        The attached final report presents the results of our audit. Our objective was to assess
        the Social Security Administration’s efforts to identify, prevent, and recover Old-Age,
        Survivors and Disability Insurance overpayments.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                           S
                                                           Patrick P. O’Carroll, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


       OVERPAYMENTS IN THE
      OLD-AGE, SURVIVORS AND
  DISABILITY INSURANCE PROGRAM

     August 2004   A-01-04-24023




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                              Executive Summary
OBJECTIVE

Our objective was to assess the Social Security Administration’s (SSA) efforts to
identify, prevent, and recover Old-Age, Survivors and Disability Insurance (OASDI)
overpayments.

BACKGROUND
SSA administers the OASDI program under Title II of the Social Security Act. The
program provides monthly benefits to retired or disabled workers and their families and
to survivors of deceased workers. Beneficiaries sometimes receive Social Security
benefits to which they are not entitled, thus creating overpayments.

RESULTS OF REVIEW
According to SSA, between Fiscal Years 1996 and 2002, $14.0 billion in OASDI
overpayments was subject to recovery efforts. Of this amount, SSA collected
$8.1 billion, deemed $0.7 billion uncollectible, waived $1.4 billion, and continued to
pursue recovery of $3.8 billion at the end of Fiscal Year 2002.

Additional tools were authorized through the Social Security Domestic Employment
Reform Act of 1994 and the Debt Collection Improvement Act of 1996 that may
strengthen SSA’s ability to recover overpayments. The Agency is considering or
developing the tools that have been authorized through legislation, but have not yet
been implemented—such as Federal salary offset, charging interest, and using private
collection agencies.

CONCLUSION AND RECOMMENDATION

SSA has made significant efforts to identify, prevent, and recover OASDI overpayments
over the past several years. To assist SSA in achieving its strategic objective of
improving debt management, we recommend that SSA continue to evaluate the
recovery tools that have not yet been implemented, but which were authorized through
legislation.

AGENCY COMMENTS
SSA agreed with our recommendation.




Overpayments in the OASDI Program (A-01-04-24023)
                                                                    Table of Contents
                                                                                                             Page


INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................2

Overpayment Identification and Prevention Activities..............................................2

        Computer Data Matches...............................................................................2
        Continuing Disability Reviews.......................................................................3
        Cooperative Disability Investigations ............................................................3
        Administrative Sanctions ..............................................................................3
        Overpayment Identification and Prevention Pilots ........................................4

Overpayment Recovery Activities ...........................................................................5

        Overpayment Recovery from Current Beneficiaries .....................................6
        Overpayment Recovery from Former Beneficiaries......................................6
        Overpayment Recovery Tools SSA is Considering or Developing ...............8

CONCLUSION AND RECOMMENDATION .........................................................10

APPENDICES

APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Prior Reports Related to OASDI Overpayments

APPENDIX D – Classification of Overpayments and Payment Accuracy

APPENDIX E – Data Matches to Identify and Prevent Overpayments

APPENDIX F – Legislation Impacting OASDI Overpayments

APPENDIX G – Agency Comments

APPENDIX H – OIG Contacts and Staff Acknowledgments




Overpayments in the OASDI Program (A-01-04-24023)
                                                                         Introduction
OBJECTIVE
Our objective was to assess the Social Security Administration’s (SSA) efforts to
identify, prevent, and recover Old-Age, Survivors and Disability Insurance (OASDI)
overpayments.1

BACKGROUND

SSA administers the OASDI program under Title II of the Social Security Act.2 Under
this program, monthly benefits are paid to retired or disabled workers and their families
and to survivors of deceased workers.

Beneficiaries sometimes receive Social Security benefits to which they are not entitled,
thus creating overpayments. Beneficiaries can be overpaid for a variety of reasons.
For example, according to SSA, a significant portion of overpayments for Fiscal Years
(FY) 1998 through 2002 resulted from disabled beneficiaries’ substantial work activity.3

SSA’s RESPONSIBILITIES

In August 2001, the Office of Management and Budget (OMB) published The
President’s Management Agenda for FY 2002, which included a Governmentwide
initiative for improving financial performance. In November 2002, Congress enacted the
Improper Payments Information Act of 2002 which requires Federal agencies—including
SSA—to report annually an estimate of certain improper payments within their programs
and activities and the actions taken to reduce improper payments.4 OMB issued
guidance in May 2003 to assist in the implementation of this new law.5 (For additional
information regarding OMB’s guidance, as well as information about SSA’s payment
accuracy rates, see Appendix D.)


1
  For information regarding SSA’s efforts to identify, prevent, and recover Supplemental Security Income
overpayments, see our April 2004 report, Supplemental Security Income Overpayments (A-01-04-24022).
In addition, we are currently conducting a review entitled, Undetected Overpayments in the Social
Security Administration’s Disability Programs (A-01-04-24065). We expect to issue this report in Fiscal
Year 2005. (For other reports related to OASDI overpayments issued by the Office of the Inspector
General and the Government Accountability Office, see Appendix C.)
2
    Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
3
 SSA, Fiscal Year 2002 Title II Payment Accuracy Report. Our audit report, Disabled Title II
Beneficiaries with Earnings Reported on the Master Earnings File (A-01-03-13019), which we issued in
July 2004, contains information regarding disability overpayments resulting from substantial gainful
activity.
4
    Pub. L. No. 107-300 §§ 2(b) and 2(c) (2002).
5
    OMB, Improper Payments Information Act of 2002, Pub. L. No. 107-300, M-03-13, May 21, 2003.


Overpayments in the OASDI Program (A-01-04-24023)                                                      1
                                                    Results of Review
SSA has made significant efforts over the past several years to identify, prevent, and
recover OASDI overpayments. In addition, the Agency is considering or developing
collection tools that were authorized through legislation, but have not yet been
implemented. These additional collection tools may assist SSA in recovering
overpayments in the OASDI program.

According to SSA, between FYs 1996 and 2002, $14.0 billion in OASDI overpayments
was subject to recovery efforts. Of this amount, the Agency collected $8.1 billion,
deemed $0.7 billion uncollectible, waived $1.4 billion, and continued to pursue recovery
of $3.8 billion at the end of FY 2002.

OVERPAYMENT IDENTIFICATION AND PREVENTION ACTIVITIES
SSA has several initiatives to better identify and prevent overpayments in the OASDI
program that should assist the Agency in achieving its strategic objective of preventing
fraudulent and erroneous payments and improving debt management.6 Specifically,
SSA

         made agreements with other agencies to conduct various computer matches;
         became current with overdue continuing disability reviews (CDR);
         formed cooperative disability investigations (CDI) units; and
         imposed administrative sanctions in some situations.

In addition, SSA is testing additional tools to assist in identifying and preventing
overpayments in the OASDI program.

COMPUTER DATA MATCHES

SSA matches information electronically with other Governmental agencies and
organizations to help identify and prevent erroneous payments in the OASDI program.
For example, SSA conducts a match with Federal, State, and Local correctional
institutions to identify and suspend OASDI benefits to prisoners. SSA estimated the
annual savings for this computer match to be $112.4 million—with a benefit-to-cost ratio
of $43-to-$1. SSA also conducts a match with Federal and State Agencies to detect
unreported deaths. SSA estimated that this match saves the Agency $212.7 million
annually—with a benefit-to-cost ratio of $44-to-$1. (For a list of additional computer
matches conducted by SSA, see Appendix E.)




6
    SSA, Strategic Plan, 2003-2008, pages 22-24.


Overpayments in the OASDI Program (A-01-04-24023)                                          2
CONTINUING DISABILITY REVIEWS

SSA conducts CDRs to determine whether individuals remain medically eligible for
disability benefits. The frequency of medical CDRs is dependent upon SSA’s
assessment of the likelihood of medical improvement. Specifically, individuals with a
significant potential for medical improvement are selected for review every 6 to
18 months. Individuals with a lower probability of medical improvement are reviewed
every 3 years. Finally, individuals with no expectation of medical improvement are
scheduled for review every 5 to 7 years.7

SSA established a 7-year plan, covering FYs 1996 through 2002, to process its entire
backlog of CDRs. Congress provided special funding to SSA to process the 7-year plan
workload.8 According to SSA, the Agency performed 894,098 CDRs in FY 2002 and
became current with all overdue CDRs in the OASDI program.9 In addition, the Agency
reported to have completed all CDRs that were scheduled in FY 2003. SSA estimated
the ratio of program savings to administrative costs for the CDRs performed in FY 2002
was approximately $9.50-to-$1.00.10

COOPERATIVE DISABILITY INVESTIGATIONS

CDI units provide investigative support to prevent payments on disability claims
involving fraud. CDI units are composed of special agents from the Office of the
Inspector General’s (OIG) Office of Investigations, personnel from SSA’s Office of
Operations, State Disability Determination Services staff, and State or local law
enforcement officers. Evidence gathered by CDI units may be used in disability
determinations and in the criminal prosecutions of individuals who commit fraud. As of
September 2003, 18 CDI units were established and plans were underway to add more
on an annual basis, depending on availability of funds. In FY 2003, the CDI project
resulted in estimated savings of approximately $100 million to SSA programs and
$59 million to non-SSA programs.11

ADMINISTRATIVE SANCTIONS

Section 207 of the Foster Care Independence Act of 1999 (FCIA) authorized SSA,
under certain circumstances, to impose administrative sanctions—nonpayment of
OASDI benefits for 6, 12, or 24 months—against any person who makes, or causes to

7
    20 C.F.R. § 404.1590(d).
8
    Pub. L. No. 104-121 §103 (1996).
9
    This includes both full medical reviews and CDR mailers.
10
  The ratio of program savings to administrative costs was for all SSA programs, not solely OASDI. In
addition, it includes estimated savings to the Medicare and Medicaid programs. (SSA, Annual Report of
Continuing Disability Reviews for FY 2002 (November 13, 2003).)
11
  SSA OIG, Semiannual Report to Congress, April 1, 2003 thru September 30, 2003, page 8
(November 2003). Examples of non-SSA programs include Medicaid and workers’ compensation.



Overpayments in the OASDI Program (A-01-04-24023)                                                       3
be made, a statement or representation of a material fact, which he or she knows or
should know was false or misleading or knows or should know omits a material fact or
makes with knowing disregard of the truth, for use in determining any initial or
continuing right to or the amount of monthly insurance benefits under Title II.12 For
example, SSA may impose a sanction if an OASDI beneficiary alleges non-receipt of a
benefit check, but later cashes both the original and the replacement check. According
to SSA’s policy instructions issued to field offices in October 2002, administrative
sanctions were imposed less frequently than expected and imposed inconsistently
among regions.13 These instructions reminded field office staff to use administrative
sanctions as appropriate.

OVERPAYMENT IDENTIFICATION AND PREVENTION PILOTS

In addition to the current tools used by SSA, the Agency is also pursuing
implementation of additional resources to help identify and prevent OASDI
overpayments. Examples of some pilots (or testing) conducted by SSA are discussed
below.

                       In June 2003, the Agency began a pilot which requires claimants
Proof of Identity      filing for disability benefits in certain field offices to allow SSA
                       staff to copy photographic identification for the claims file.
According to SSA, “This process will strengthen the integrity of the disability claims
process by helping to ensure that the individual presenting himself or herself for
examination is the same individual who filed the original disability application.”14 Failure
to comply with the photograph requirement could result in a denial of benefits.

                         In September 1999, SSA contracted with the National
Electronic Death         Association for Public Health Statistics and Information Systems,
Registration             an association of State vital records directors and registrars, to
                         develop standards and guidelines for a proposed nationwide
system of electronic death registration. This system would enable SSA to receive death
reports within 5 days of death and 24 hours of receipt in the State Bureau of Vital
Statistics. As of April 2004, this project was still in the development stage, in addition, it
is one of several OMB e-Government initiatives.15




12
     FCIA, Pub. L. No. 106-169 § 207 (1999), Social Security Act § 1129A, 42 U.S.C. § 1320a-8a.
13
     SSA, Policy Instruction EM-02118, October 2002.
14
     SSA, Policy Instruction EM-03053, section A, June 2003.
15
  In August 2001, OMB published The President’s Management Agenda for FY 2002, which included a
Governmentwide initiative for improving electronic Government (or e-Government). E-Government is
expected to improve the use of the internet to make it easier for citizens and businesses to interact with
the Government.



Overpayments in the OASDI Program (A-01-04-24023)                                                            4
OVERPAYMENT RECOVERY ACTIVITIES
SSA has made significant efforts over the past several years to recover OASDI
overpayments. Specifically, SSA implemented several new collection tools and expects
to implement additional tools in the near future. Between FYs 1996 and 2002,
$14.0 billion in OASDI overpayments was subject to recovery efforts.16 The disposition
of these overpayments at the end of FY 2002 is depicted in the chart below.


                            Disposition of OASDI Overpayments Between
                                         FYs 1996 and 2002
                                 Remained
                                Recoverable
                                 $3.8 billion
                                  ( 27.2%)


                               Deemed                            Recovered
                             Uncollectible                       $8.1 billion
                              $0.7 billion                        (57.5%)
                                (5.3%)
                                              Waived
                                             $1.4 billion
                                              (10.0%)


SSA acknowledges its stewardship responsibilities, which require the Agency to recover
as much of its outstanding debt as possible.17 The Agency could realize additional
savings to the OASDI program if the Agency were to decrease the amounts of
overpayments it waived or deemed uncollectible.18 For example, if the Agency had
waived 10 percent fewer overpayments between FYs 1996 and 2002, SSA might have
been able to recover approximately $140 million.19 In addition, SSA could save
approximately $70 million if the Agency were to recover 10 percent of the $700 million it
deemed uncollectible between FYs 1996 and 2002.20
16
  The $14.0 billion represents $11.9 billion in OASDI overpayments identified between FYs 1996 and
2002 (net of reestablished debt and adjustments), plus FY 1995 OASDI overpayments totaling $2.1 billion
brought forward to FY 1996.
17
     SSA, Performance and Accountability Report, FY 2003, page 45.
18
  Not all OASDI overpayments are subject to SSA’s recovery tools. Generally, SSA must not attempt to
recover OASDI overpayments if the Agency finds that the individuals were not at fault in causing the
overpayments and certain criteria are met (20 C.F.R. § 404.506). Between FYs 1996 and 2002, SSA
waived approximately $1.4 billion dollars in OASDI overpayments.
19
  We expect to issue our audit report—The Social Security Administration’s Controls Over the Title XVI
Waiver Process (A-06-03-13077)—in FY 2004. In this audit, we found that not all waiver decisions for
SSI overpayments are made in accordance with SSA’s policies and procedures. We plan to begin a
similar audit of overpayment waivers in the OASDI program in FY 2005.
20
   An overpayment that was waived is not subject to further recovery efforts, but an overpayment deemed
uncollectible remains recoverable—e.g., from future benefit payments to the individual (SSA, Program
Operations Manual System (POMS), section GN 02215.250.A). In FY 2005, we plan to conduct an audit
of OASDI overpayments for which SSA terminated recovery efforts.



Overpayments in the OASDI Program (A-01-04-24023)                                                        5
OVERPAYMENT RECOVERY FROM CURRENT BENEFICIARIES

SSA policy requires that, when an overpayment is discovered, the amount and liability
for repayment be communicated as soon as possible to the overpaid individual. SSA is
also required to issue a written notice to the individual, which includes—among other
things—the overpayment amount, how and when it occurred, as well as the individual’s
right to request a reconsideration of the overpayment determination and a waiver of
recovery.21

Full and immediate refund is the preferred method of recovery of an overpayment,
regardless of whether benefit adjustment is available.22 If the individual fails to make a
full refund, SSA can recover the overpayment by withholding benefits payable to the
overpaid individual, a representative payee who received an overpayment on behalf of a
beneficiary, and/or any other individuals receiving benefits on the same earnings record
on which the overpayment occurred.23

OVERPAYMENT RECOVERY FROM FORMER BENEFICIARIES

If an overpaid individual is financially unable or unwilling to make a full refund and is not
currently receiving benefits from which recovery can be pursued, then installment
payments are acceptable.24 If individuals do not make their scheduled installment
payments, then SSA has the ability to attempt recovery of the overpayments through
the tools listed below.

Tax Refund Offset and Administrative Offset

SSA began recovering delinquent OASDI overpayments from former beneficiaries by
offsetting their Federal tax refunds in 1992.25 In 1998, the Agency began using
administrative offset—reduction or withholding of a Federal payment other than a tax
refund—to recover OASDI overpayments.26 According to SSA, the Agency had
cumulatively collected over $790 million from tax refunds and other Federal payments
through September 2003.27
21
     SSA, POMS, sections GN 02201.009.A. and GN 02201.009.B.1.
22
     SSA, POMS, section GN 02210.150.A.
23
  SSA, POMS, section GN 02210.001.1. A representative payee is an individual or organization who
manages a beneficiary’s OASDI payments. SSA appoints representative payees when individuals are
incapable of managing their own payments.
24
     SSA, POMS, section GN 02210.180.A.
25
 Section 204(a)(1) of the Social Security Act, 42 U.S.C. § 404(a)(1), allows SSA to recover delinquent
OASDI overpayments from former beneficiaries by offsetting their Federal income tax refunds.
26
  The Social Security Domestic Employment Reform Act of 1994 § 5, Pub. L. No. 103-387, authorized
SSA to collect certain OASDI overpayments by administrative offset. Social Security Act § 204(f)(1) and
(2), 42 U.S.C. § 404(f)(1) and (2).
27
     SSA, Performance and Accountability Report, FY 2003, page 200.


Overpayments in the OASDI Program (A-01-04-24023)                                                         6
Referral of Overpayments to Credit Bureaus

The Social Security Domestic Employment Reform Act of 1994 (DERA) authorized SSA
to report certain delinquent OASDI overpayments to credit bureaus.28 In 1998, SSA
began reporting these overpayments to credit bureaus as a way of influencing
individuals to repay their debts.

Recovery from Representative Payees

Section 201 of the FCIA gave SSA the authority to hold representative payees liable for
OASDI overpayments caused by payments made after the deaths of beneficiaries.29
Also, the FCIA requires SSA to establish overpayment control records under the
representative payees’ Social Security numbers.30 SSA is evaluating a project to
establish overpayments on the Agency’s records to account for and collect
representative payee overpayments.

Recovery from Supplemental Security Income Payments

In March 2004, the Social Security Protection Act of 2004 was enacted and it allows
SSA, subject to certain limitations, to collect an OASDI overpayment from an
individual’s Supplemental Security Income payment.31 This process is known as cross-
program recovery.

Recovery by Compromise Settlements

SSA policy allows for recovery of an overpayment through a compromise settlement
when, among other things, the individual is unable or unwilling to repay the full amount
of the overpayment within a reasonable time, either by refund or adjustment.32 A
compromise settlement is an offer to repay the Government a lesser amount than owed
if the individual is relieved of further responsibility of the debt.




28
     Pub. L. No. 103-387 § 5(a) (1994), Social Security Act § 204(f)(1), 42 U.S.C. § 404 (f)(1).
29
     FCIA, Pub. L. No. 106-169 § 201(a) (1999), Social Security Act § 204(a)(2), 42 U.S.C. § 404(a)(2).
30
     Id.
31
     Pub. L. No. 108-203 §210 (2004), 42 U.S.C. § 1320b-17.
32
     SSA, POMS, section GN 02215.100.



Overpayments in the OASDI Program (A-01-04-24023)                                                         7
OVERPAYMENT RECOVERY TOOLS SSA IS CONSIDERING OR DEVELOPING

In FY 2004, one of SSA’s objectives is to increase the percent of outstanding debt that
is in a collection arrangement.33 To accomplish this objective, the Agency will continue
to use the debt collection tools available. In addition to the current tools used by SSA to
recover delinquent OASDI overpayments, SSA is also evaluating the use of additional
tools to improve the recovery of overpayments owed by former beneficiaries, including
          administrative wage garnishment;
          Federal salary offset;
          private collection agencies; and
          charging interest.

                        The Debt Collection Improvement Act of 1996 (DCIA) authorized
Administrative          the Agency to collect delinquent OASDI overpayments by
Wage                    garnishing the wages of private and public sector employees.34
Garnishment             SSA established new regulations to recover delinquent OASDI
                        overpayments by administrative wage garnishment in
December 2003.35 These regulations, effective January 22, 2004, allow SSA to garnish
up to 15 percent of employees’ wages until overpayments are fully recovered. Based
on a recent analysis conducted by SSA, the Agency estimated that administrative wage
garnishment will yield approximately $55 million to $99 million in voluntary repayments
alone by individuals hoping to avoid garnishment.36


Federal Salary          The DCIA authorized the use of Federal salary offset.37 Federal
Offset                  salary offset is the direct collection of delinquent overpayments
                        owed by Federal workers from their salaries. According to the
                        Agency, the number of Federal employees subject to this
collection tool is expected to be very small (less than 5,000).38

                              Section 5 of the DERA authorized SSA to use private collection
Private Collection            agencies for OASDI overpayments.39 The Agency intends to use
Agencies                      the Department of the Treasury’s cross-servicing program to act
                              as a debt collector for SSA. In June 2000, SSA testified before
                              Congress that the Agency had been working with the


33
     SSA, Performance and Accountability Report, FY 2003, page 45.
34
     Pub. L. No. 104-134 § 31001(o)(1) (1996).
35
     20 C.F.R. §§ 422.401 to 422.445.
36
     SSA, Key Initiative Plan and Schedule, January 22, 2002, page 96.
37
     Pub. L. No. 104-134 § 31001(z)(2)(A) (1996).
38
     SSA, Key Initiative Plan and Schedule, January 22, 2002, page 100.
39
     Pub. L. No. 103-387 § 5 (1994), Social Security Act § 204(f)(1) and (2), 42 U.S.C. § 404 (f)(1) and (2).



Overpayments in the OASDI Program (A-01-04-24023)                                                               8
Department of the Treasury on the program.40 According to SSA, the Department of the
Treasury is developing software for the cross-servicing program and expects the
earliest the replacement software will be available is sometime in FY 2006, with further
delays possible.

                             The DCIA gave SSA the authority to charge interest on
Charging                     delinquent OASDI overpayments.41 Charging interest should
Interest                     result in voluntary repayments by overpaid individuals to avoid
                             the interest. As of October 2003, no specific implementation
                             date had been set by SSA.




40
   On June 8, 2000, the Deputy Commissioner for Finance, Assessment and Management testified before
Congress, House Committee on Government Reform, Subcommittee on Government Management,
Information and Technology on implementation of the DCIA.
41
     Pub. L. No. 104-134 § 31001 (z)(2)(A) (1996).


Overpayments in the OASDI Program (A-01-04-24023)                                                9
                                                     Conclusion and
                                                    Recommendation
Overall, SSA has made significant efforts to identify, prevent, and recover OASDI
overpayments over the past several years. In addition, the Agency is considering or
developing collection tools that were authorized through legislation but have not yet
been implemented. These additional collection tools may assist SSA in recovering a
significant portion of overpayments in the OASDI program and could improve the long-
range solvency of the Social Security Trust Funds.

To assist SSA in achieving its strategic objective of improving debt management, we
recommend that SSA continue to evaluate the recovery tools that have not yet been
implemented but which were authorized by the DERA and DCIA (such as, Federal
salary offset, charging interest, and using private collection agencies).

AGENCY COMMENTS

SSA agreed with our recommendation. Specifically, the Agency is developing functional
requirements for Administrative Wage Garnishment and drafting regulations for Federal
Salary Offset. SSA will also continue to evaluate, prioritize, and implement additional
recovery tools where appropriate.

Additionally, SSA took exception with our position that the Agency could realize
additional savings if it decreased the amount of overpayments waived or deemed
uncollectible. (See Appendix G for SSA’s comments.)

OIG RESPONSE
We stand by our discussion in the report that SSA could realize additional savings if it
decreased the amount of overpayments waived or deemed uncollectible. We
understand that SSA’s decisions regarding waivers are not arbitrary, but, instead, are
based on established rules and regulations. Also, our report notes that overpayments
deemed uncollectible may still be subject to recovery efforts.

The amount of dollars waived and deemed uncollectible by SSA—as shown in the chart
on page 5 of this report—is significant. Further, on-going OIG work shows that not all
waiver decisions for Supplemental Security Income overpayments were made in
accordance with SSA’s policies and procedures. In FY 2005, we plan to begin a review
of overpayment waivers in the OASDI program. Where appropriate, we modified the
report to address specific comments from the Agency.




Overpayments in the OASDI Program (A-01-04-24023)                                          10
                                         Appendices




Overpayments in the OASDI Program (A-01-04-24023)
                                                               Appendix A

Acronyms
CDI              Cooperative Disability Investigations

CDR              Continuing Disability Review

C.F.R.           Code of Federal Regulations

DCIA             Debt Collection Improvement Act of 1996

DERA             Domestic Employment Reform Act of 1994

FCIA             Foster Care Independence Act of 1999

FY               Fiscal Year

GAO              Government Accountability Office

OASDI            Old-Age, Survivors and Disability Insurance

OIG              Office of the Inspector General

OMB              Office of Management and Budget

POMS             Program Operations Manual System

SSA              Social Security Administration

U.S.C.           United States Code




Overpayments in the OASDI Program (A-01-04-24023)
                                                                     Appendix B

Scope and Methodology
To accomplish our objective, we:

 Researched the Social Security Act and the Social Security Administration’s (SSA)
  regulations, policies and procedures related to Old-Age, Survivors and Disability
  Insurance (OASDI) program overpayments.

 Obtained, from SSA, OASDI overpayment statistics for Fiscal Years 1996 through
  2002.

 Researched and reviewed prior Office of the Inspector General and Government
  Accountability Office audit reports related to OASDI overpayments.

 Researched the different tools and techniques available to SSA to identify, prevent,
  and recover OASDI overpayments.

 Researched the different causes of overpayments, including those inherent to the
  design of the OASDI program and those that cannot be changed without legislation.

We conducted our review between September 2003 and January 2004 in Boston,
Massachusetts. We relied on overpayment statistical data obtained from SSA to meet
our audit objective. We did not independently test or verify this information.
Accordingly, we do not express an opinion or any other degree of assurance as to its
validity. The principal entities audited were the Office of Income Security Programs and
the Office of Disability Programs under the Deputy Commissioner for Disability and
Income Security Programs and SSA field offices and program service centers under the
Deputy Commissioner for Operations. We conducted our audit in accordance with
generally accepted government auditing standards.




Overpayments in the OASDI Program (A-01-04-24023)
                                                                                   Appendix C

Prior Reports Related to OASDI Overpayments
The Office of the Inspector General (OIG) and the Government Accountability Office
(GAO) have issued several reports relating to overpayments in the Old-Age, Survivors
and Disability Insurance (OASDI) program. Some of these reports included
recommendations the Social Security Administration (SSA) either fully or partially
agreed to implement. These reports are presented in the table below.1

                                                                       Fully Agreed or No   Partially
                              Report Title
                                                                       Recommendations      Agreed
    OIG, Issue Paper: Detecting, Preventing, and Eliminating
    Unidentified Overpayments in the Social Security
    Administration’s Disability Programs (Limited Distribution)
                                                                               9
    (A-09-02-22067), September 2003
    OIG, Follow-up on Prior Office of the Inspector General Prisoner
    Audits (A-01-02-12018), July 2003
                                                                               9
    OIG, Follow-up Review of Old-Age, Survivors and Disability
    Insurance Benefits Paid to Deceased Auxiliary Beneficiaries                9
    (A-01-03-13037), June 2003
    OIG, Use of State Bureaus of Vital Statistics Records to Detect
    Unreported Marriages and Divorces (A-09-00-30059),                         9
    June 2003
    OIG, Pending Workers’ Compensation: The Social Security
    Administration Can Prevent Millions in Title II Disability                                 9
    Overpayments (A-08-02-12064), June 2003
    OIG, Old-Age, Survivors and Disability Insurance and
    Supplemental Security Income Payments to Deceased                          9
    Beneficiaries and Recipients (A-06-02-12012), October 2002
    OIG, Impact on the Social Security Administration’s Programs
    When Auxiliary Beneficiaries Do Not Have Their Own Social                                  9
    Security Numbers (A-01-02-22006), September 2002
    OIG, Effectiveness of the Social Security Administration’s Death
    Termination Process (A-09-02-22023), September 2002
                                                                                               9
    GAO, SSA Disability: Enhanced Procedures and Guidance
    Could Improve Service and Reduce Overpayments to                           9
    Concurrent Beneficiaries (GAO-02-802), September 2002
    OIG, Controls Over the Social Security Administration’s
    Processing of Death Records from the Department of Veterans                9
    Affairs (A-01-01-21038), February 2002
    OIG, Payments Made to Selected Representative Payees after
    the Deaths of Social Security Beneficiaries (A-13-01-21028),               9
    September 2001

1
 Copies of these reports can be found on our website at http://www.socialsecurity.gov/oig and GAO’s
website at http://www.gao.gov.


Overpayments in the OASDI Program (A-01-04-24023)                                                     C-1
                                                                   Fully Agreed or No   Partially
                           Report Title
                                                                   Recommendations      Agreed
 OIG, Unresolved Death Alerts Over 120 Days Old
 (A-09-00-10001), August 2001
                                                                                           9
 OIG, Old-Age, Survivors and Disability Insurance Benefits Paid
 to Deceased Auxiliary Beneficiaries (A-01-00-20043),                      9
 June 2001
 GAO, Workers’ Compensation: Action Needed to Reduce
 Payment Errors in SSA Disability and Other Programs                                       9
 (GAO-01-367), May 2001
 OIG, Payments to Young Spouses and Surviving Spouses
 Without Child In-Care (A-09-00-10002), March 2001
                                                                           9
 OIG, Payments to Child Beneficiaries Age 18 or Over Who
 Were Neither Students Nor Disabled (A-09-99-63008),                       9
 May 2000
 OIG, Workers’ Compensation Unreported by Social Security
 Beneficiaries (A-04-98-64002), December 1999
                                                                           9
 OIG, School Attendance by Child Beneficiaries Over Age 18
 (A-09-97-61007), September 1999
                                                                           9
 OIG, Waivers Granted for Title II Overpayments Exceeding
 $500 (A-09-97-61005), September 1999
                                                                                           9
 OIG, Social Security Administration’s Controls over Retirement,
 Survivors and Disability Insurance Installments Payments                                  9
 (A-01-96-61038), September 1998
 OIG, Effects of State Awarded Workers’ Compensation
 Payments on Social Security Benefits (A-04-96-61013),                                     9
 September 1998
 GAO, Social Security: Better Payment Controls for Benefit
 Reduction Provisions Could Save Millions (GAO/HEHS-98-76),                9
 April 1998
 OIG, Payment of Benefits to Individuals Who Do Not Have Their
 Own Social Security Number (A-04-96-42000), February 1998
                                                                                           9
 OIG, Effectiveness of the Social Security Administration’s
 Procedures to Process Prisoner Information, Suspend
 Payments and Collect Overpayments (A-01-96-61083),
                                                                           9
 June 1997
 OIG, Overpayments Incurred by Representative Payees
 (A-02-96-61202), June 1997
                                                                                           9
 GAO, SSA Overpayment Recovery (GAO/HEHS-96-104R),
 April 1996
                                                                           9
 TOTAL                                                                    16               10




Overpayments in the OASDI Program (A-01-04-24023)                                               C-2
                                                                      Appendix D

Classification of Overpayments and Payment
Accuracy
In August 2003, the Office of Management and Budget (OMB) responded to a request
from the Social Security Administration (SSA) and the Office of the Inspector General to
provide additional guidance on the definition of an erroneous payment. OMB classified
the payments into two groups—avoidable and unavoidable.
         Avoidable: Payments that should be reflected in the erroneous payment
          estimate because they could be reduced through changes in administrative
          actions.
         Unavoidable: Payments resulting from legal or policy requirements. These
          payments should not be considered erroneous.

AVOIDABLE OVERPAYMENTS
SSA defines an overpayment as “…the total amount an individual received for any
period which exceeds the total amount which should have been paid for that period.”1
Certain overpayments in the Old-Age, Survivors and Disability Insurance (OASDI)
program are avoidable and may be reduced by the Agency.

According to SSA, the leading causes for OASDI overpayments for Fiscal Years
1998 through 2002 had to do with errors related to substantial gainful activity.2 To
detect unreported work activity, the Agency compares earnings reported to SSA with its
benefit rolls.

UNAVOIDABLE OVERPAYMENTS
Certain OASDI overpayments are unavoidable due to the design of the program or
existing legislation. Presented below is a list of OASDI overpayments classified as
unavoidable.
      1. Payments issued after a beneficiary’s death.3
      2. Payments made based on existing legislation that are later determined to be
         overpayments. For example, when a beneficiary is no longer considered to be
         disabled, SSA is required by law to continue to pay them during the appeals
         process.

1
    SSA, Program Operations Manual System, section GN 02201.001.
2
    SSA, Fiscal Year 2002 Title II Payment Accuracy Report, page 7.
3
    Classified as unavoidable, except for fraud or misuse.



Overpayments in the OASDI Program (A-01-04-24023)                                     D-1
      3. Payments made incorrectly due to the design of the OASDI program. For
         example, SSA is required to make OASDI payments based on estimated
         earnings.
      4. Payments despite medical ineligibility. For example, payments for which a
         beneficiary would not have been eligible had the law permitted retroactive
         ineligibility.
      5. Payments made in error, but not identified by SSA.4
      6. Payments made to a beneficiary who alleges non-receipt of a benefit check, but
         who then cashes both the original and replacement checks.5

OASDI PAYMENT ACCURACY RATES

Each year, SSA reports payment accuracy rates for its OASDI program as well as the
amount of actual overpayments identified. For each program, SSA calculates payment
accuracy rates based on a detailed analysis of sample cases. Below is a chart showing
SSA’s payment accuracy rates for the OASDI program.6

                                          Old-Age and
                                                                Disability
                      Fiscal Year          Survivors
                                                               Insurance
                                           Insurance
                          1998                 99.90%             99.10%
                          1999                 99.80%             99.30%
                          2000                 99.96%             99.62%
                          2001                 99.98%             98.94%
                          2002                 99.89%             99.74%




4
 We are currently conducting an audit entitled, Undetected Overpayments in the Social Security
Administration’s Disability Programs (A-01-04-24065). We expect to issue this report in Fiscal Year 2005.
5
    Classified as unavoidable, except for fraud or misuse.
6
    The accuracy rates do not include all types of overpayments, as discussed above.



Overpayments in the OASDI Program (A-01-04-24023)                                                    D-2
                                                                                 Appendix E

Data Matches to Identify and Prevent
Overpayments
The table below presents some of the computer matches the Social Security
Administration (SSA) performs to identify and prevent overpayments in the Old-Age,
Survivors and Disability Insurance (OASDI) program.

          Source                                      Description of Match
   Federal, State and Local    Identifies and suspends OASDI benefits to individuals convicted of a
   Correctional Institutions   crime and confined for more than 30 continuous days in an institution.

  State and Federal Agencies   Detects unreported deaths by matching State and Federal agency
                               death records against OASDI benefit records.

     Department of Labor       Detects and prevents disability overpayments. Also, verifies workers’
                               compensation offset amounts for OASDI cases.

      Office of Personnel      Identifies OASDI disability beneficiaries with Civil Service disability
         Management            benefits and enables SSA to identify auxiliary OASDI beneficiaries who
                               are also receiving Federal Government pension benefits as retired civil
                               service employees.

   Centers for Medicare and    Enables SSA to determine whether OASDI beneficiaries who have not
      Medicaid Services        used Medicare for a year are deceased.

    Employers Reporting        Allows SSA to post employee wages to its Master Earnings File and
   Employee Wages to SSA       identify which beneficiaries appear to be working based on those
                               wages.




Overpayments in the OASDI Program (A-01-04-24023)
                                                                                      Appendix F

Legislation Impacting OASDI Overpayments
Several laws have been passed that authorized the Social Security Administration
(SSA) to use new overpayment collection tools to improve the recovery of Old-Age,
Survivors and Disability Insurance (OASDI) overpayments. The following table
describes these collection tools as well as the time period between the year the Agency
was authorized to use the tool and the year the tool was actually implemented.

                           OASDI Overpayment Collection Activities
            Legislation                 Collection Tool              Effective          Implemented
       Omnibus Budget
    Reconciliation Act of 1990         Tax Refund Offset
     (Pub. L. No. 101-508,          (31 U.S.C. § 3720A and         January 1991         January 1992
             enacted                 42 U.S.C. § 404(a)(1))
      November 5, 1990)

                                      Administrative Offset
                                   (42 U.S.C. § 404(f)(1) and      October 1994         January 1998
                                       31 U.S.C. § 3716)

                                      Private Collection
     Social Security Domestic        Agencies (Treasury’s
     Employment Reform Act         cross servicing program)        October 1994          Not in Use1
             of 1994               (42 U.S.C. § 404(f)(1) and
      (Pub. L. No. 103-387,            31 U.S.C. § 3718)
    enacted October 22, 1994)
                                      Report Delinquent
                                    Overpayments to Credit
                                          Bureaus                  October 1994         January 1998
                                   (42 U.S.C. § 404(f)(1) and
                                     31 U.S.C. § 3711(e))




1
  Although this collection tool is currently not in use, SSA plans to evaluate and possibly implement this
tool in the future.



Overpayments in the OASDI Program (A-01-04-24023)                                                        F-1
                          OASDI Overpayment Collection Activities
           Legislation                 Collection Tool              Effective         Implemented
                                     Administrative Wage
                                        Garnishment                April 1996            Planned2
                                     (31 U.S.C. § 3720D)
          Debt Collection           Federal Salary Offset
     Improvement Act of 1996      (42 U.S.C. § 404(f)(1) and       April 1996           Not in Use1
       (Pub. L. No. 104-134,           5 U.S.C.§ 5514)
      enacted April 26, 1996)
                                         Levy Interest
                                  (42 U.S.C. § 404(f)(1) and       April 1996           Not in Use1
                                      31 U.S.C. § 3717)

    Foster Care Independence        Representative Payee
     Act of 1999 (Pub. L. No.             Liability             December 2000        December 2000
        106-169, enacted
      December 14, 1999)            (42 U.S.C. § 404(a)(2))
    Social Security Protection
           Act of 2004             Cross Program Recovery
      (Pub. L. No. 108-203                                         March 2004           Not in Use3
         § 210, enacted             (42 U.S.C. § 1320b-17)
         March 2, 2004)




2
 SSA issued final rules on December 23, 2003 in the Federal Register establishing new regulations to
collect delinquent OASDI overpayments by garnishing the wages of public and private sector employees.
These regulations, effective January 22, 2004, allow SSA to garnish up to 15 percent of employees’
wages until overpayments are fully recovered (20 C.F.R. §§ 422.401 to 422.445).
3
 Prior to the enactment of the Social Security Protection Act of 2004, the Agency could collect OASDI
overpayments from an individual’s Supplemental Security Income payments at the individual’s request.
The Social Security Protection Act of 2004 eliminates the requirement to obtain the individual’s consent.



Overpayments in the OASDI Program (A-01-04-24023)                                                      F-2
                                                    Appendix G

Agency Comments




Overpayments in the OASDI Program (A-01-04-24023)
                                        SOCIAL SECURITY

MEMORANDUM                                                                      33234-24-1132


Date:      July 30, 2004                                                        Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Acting Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report "Overpayments in the Old-Age,
           Survivors, Disability Insurance Program" (A-01-04-24023)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




           Overpayments in the OASDI Program (A-01-04-24023)                                          G-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "OVERPAYMENTS IN THE OLD-AGE, SURVIVORS, DISABILITY
INSURANCE PROGRAM” (OASDI) (A-01-04-24023)


Thank you for the opportunity to review and comment on the subject draft report. We appreciate
the report's acknowledgment of the significant efforts we have made over the past several years
to identify, prevent and recover OASDI overpayments. As previously reported, we have been
fully engaged in implementing numerous debt collection and cash management improvements
since the implementation of tax refund offset in 1992.

On page 5, we agree with the overpayment statistic that shows that, between fiscal years (FY)
1996 and 2002, $14.0 billion in OASDI overpayments were subject to recovery. We are pleased
that the report notes that over half of that amount has already been recovered ($8.1 billion) and
that we were pursuing collection of an additional $3.8 billion at the end of FY 2002. If all funds
identified as recoverable are collected ($11.9 billion), we will have achieved an 85 percent
collection rate for these overpayments.

Also on page 5, regarding the statement that we could realize additional savings if we decreased
the amount of overpayments waived or deemed uncollectible, our position regarding waivers is
that under due process, and in accordance with sections 204(b) and 1631(b)(1)(B) of the Social
Security Act, debtors have a right to request waiver of an overpayment. If the debt meets the
tiered waiver criteria, it must be deemed “waived” and may no longer be pursued from the
individual requesting the waiver. This is our position for all waivers under both Titles II and
XVI. Furthermore, we take exception with the projection that we could realize an additional
$140 million in program savings if we reduced the number of waivers by 10 percent, as neither
this, nor any other review, found that we incorrectly approved 10 percent or any other percentage
of waiver requests.

Regarding uncollectible debt, the government wide Federal Claims Collection Standards (FCCS)
(on which pertinent sections of our overpayment regulations are based), provide for deeming
overpayments as uncollectible by conditional termination of collection efforts when debts reach
certain statuses. In accordance with FCCS, we conditionally write off debts when the debtor can
no longer be located, when the cost of collection exceeds the recoverable amount, and when the
person is unable or unwilling to repay. The report should note that these write offs are
conditional and that we still reserve the right to collect the debt if circumstances change (for
example, the person becomes re-entitled). When a debt is conditionally written off, it is thus
removed from the Agency’s accounts receivable balance. However, we continue recovery
efforts of qualified written-off debts via the Treasury Offset Program, credit bureau reporting
and mandatory cross program recovery. If these efforts result in a collection or the individual
becomes reentitled to benefits, SSA will reestablish the debt.

To address the leading cause of Title II overpayments (substantial gainful activity), we are
currently pursuing the possibility of using earnings posted to the Master Earnings File as a basis
to immediately withhold a disabled beneficiary’s benefits. Currently, we have to wait for
extensive development (which can take several months) to be done before we withhold benefits


Overpayments in the OASDI Program (A-01-04-24023)                                              G-2
based on earnings. By withholding benefit payments up front, we anticipate additional savings
to our programs as many overpayments will be avoided.

As part of our ongoing stewardship responsibilities, our 2003 Performance and Accountability
Report includes information on the strategy we implemented for improving the management of
debt, including: 1) the identification of debtors whose debts have been determined to be
uncollectible and are now receiving benefits; 2) the development of a scoring system that
prioritizes unresolved debts to bring debt workloads into balance with operational resources and
to ensure that resources are expended on the debt with the best potential for recovery; and 3) a
connection between Agency level performance goals related to debt resolution and Payment
Service Center, Field Office and Teleservice Center performance measures. Operating
components now have tools such as the “Overpayment Wizard” that organizes debt information
more efficiently for individual case processing and better workload management.

Regarding the narrative on Administrative Sanctions (page 3 of the draft report), we would like
to emphasize that SSA was instrumental in the legislation that provided this new tool and we
fully support the expansion of its use. In recent months, our efforts have included the following:

    1) Incorporating Administrative Sanctions into the Cooperative Disability Investigations
    (CDI) Program - Effective February 2004, procedures were introduced in POMS DI
    11006.035 for CDI units to refer potential administrative sanction cases to the local Field
    Office (FO) for further consideration and appropriate development. Cases sent to the CDI
    units contain potential fraud or similar fault issues, and are subject to criminal/civil
    prosecution or civil monetary penalty. Effective with the above procedures, these cases
    should now also be considered for administrative sanctions.

     2) Electronically Identifying Cases Upon Referral to OIG as Potential Administrative
    Sanction Cases to Help Expedite the Decision Process - Effective June 14, 2004, a new
    indicator was added to the electronic e-8551 programmatic referral form to help earmark it as
    a potential administrative sanction case, and

    3) Identifying Specific Situations Where Administrative Sanctions Should Be Considered –
    SSA issued a national message in June 2004, highlighting the use of administrative sanctions
    in double check negotiation situations.

We believe that our past performance, current efforts, and our proactive efforts to identify
opportunities to enhance internal processes to prevent overpayments, demonstrates our
commitment to ensuring that debt collection efforts are administered efficiently. Our response to
the recommendation and some technical comments are provided below.




Overpayments in the OASDI Program (A-01-04-24023)                                                 G-3
Recommendation 1

SSA should continue to evaluate the recovery tools that have not yet been implemented, but
which were authorized by the Domestic Employment Reform Act and the Debt Collection
Improvement Act (such as Federal salary offset, charging interest, and using private collection
agencies).

Response

We agree. We are currently developing functional requirements for Administrative Wage
Garnishment and drafting regulations for Federal Salary Offset. We will continue to evaluate,
prioritize, and implement additional recovery tools where appropriate.



[In addition to the items listed above, SSA also provided technical comments which
have been addressed, where appropriate, in this report.]




Overpayments in the OASDI Program (A-01-04-24023)                                             G-4
                                                                      Appendix H

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Judith Oliveira, Director, (617) 565-1765

Acknowledgments
In addition to those named above:

   Jeffrey Brown, Auditor

   Frank Salamone, Auditor


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-01-04-24023.




Overpayments in the OASDI Program (A-01-04-24023)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
